      LIMITED REVIEW OF THE
    CONTRACT ADMINISTRATION
OF THE U.S. COURTHOUSE PROJECT IN
    CAPE GIRARDEAU, MISSOURI
 REPORT NUMBER A080186/P/6/R10002
           MARCH 17, 2010
                                                                                                        




Date       : March 17, 2010

Reply to
Attn of   : Heartland Region Field Audit Office (JA-6)

Subject    : Limited Review of the Contract Administration of the
            U.S. Courthouse Project in Cape Girardeau, Missouri
            Report Number A080186/P/6/R10002

To         : Mary A. Ruwwe,
            Regional Commissioner, Public Buildings Service (6P)


            This report presents the results of our limited review of the administration of Contract
            Number GS06P07GYD0017 for the “gap work” at the Rush H. Limbaugh, Sr., United
            States Courthouse in Cape Girardeau, Missouri.

            We initiated the review primarily because of concerns raised in numerous newspaper
            articles. These articles addressed various issues encountered during the later stages of
            the project and the resulting length of time that it took to complete the courthouse
            project.

            This review focused on the third and final contract in a series of contracts related to
            work done at the subject courthouse. Our office had previously reviewed the first two
            construction contracts (Contract Numbers GS06P02GZC0518 with PCL Construction
            Services, Inc., and GS06P05GZC0009 with Tarlton Corporation). This contract dealt
            with the gap work (i.e., all of the work that was not included in the other two contracts).


            Background

            On June 2, 2003, the General Service Administration (GSA), Heartland Region’s
            (Region 6) Public Buildings Service (PBS) awarded Contract Number
            GS06P02GZC0518 for $44 million to PCL Construction Services, Inc., to design and
            build the Rush H. Limbaugh, Sr., United States Courthouse in Cape Girardeau,
            Missouri. However, on November 5, 2004, GSA issued a Notice of Partial Termination
            to the contractor because of concerns that the tenant improvement work for the project
            would exceed the budgeted amount.

            Subsequently, on September 29, 2005, Region 6 PBS awarded Contract Number
            GS06P05GZC0009 for $4,402,995 to Tarlton Corporation to construct approximately
            100,000 gross square feet of tenant space inside the newly constructed core and shell

                                                         1
courthouse. The tenant improvement work included construction of walls, ceilings,
access floor, lighting, HVAC, security devices, etc.

Finally, to correct the gaps in the work which were omitted from the previous contracts,
Region 6 PBS awarded Contract Number GS06P07GYD0017 on September 26, 2007,
to J.E. Novack Construction Company. The original contract award amount was for
$215,000; however, after the execution of twenty contract change orders, the final
contract amount exceeded $2.3 million, of which $977,023 was to replace the roof of the
subject courthouse.


Objective, Scope and Methodology

The objective of our review was to determine if the contract was administered in
accordance with applicable procedures and regulations. Our review focused on the
change orders issued under the contract which would have impacted the timing and
associated costs of the construction project.

In order to accomplish the audit objective, we: (1) reviewed the file for Contract Number
GS06P07GYD0017 including contract award documentation, general requirements,
contract specifications, correspondence, and inspection and progress payment records;
(2) evaluated applicable Federal Acquisition Regulation (FAR) and General Services
Administration Acquisition Manual (GSAM) requirements; (3) examined all contract
change order files including award documents, proposals, Government estimates,
findings of fact, and records of negotiations; and (4) held discussions with regional PBS
personnel on various aspects of the construction project. We also performed a limited
review of the prior PBS contract (GS06P05GZC0009 with Tarlton Corporation) for work
performed on the Cape Girardeau Courthouse project after the initial contract with PCL
Construction Services, Inc., was terminated.

The review was conducted in accordance with generally accepted Government auditing
standards. The standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objective.




                                           2
Results of Review

Our review identified a separation of duties and conflict of interest issue related to
project management staff approval of contract change orders. In addition, we
determined that the contract change order files were not properly documented.


Findings

Finding 1 – Separation of Duties/Conflict of Interest

PBS’s overall goal for the completion of construction projects is to procure quality
construction that is completed on time and within budget. On the gap work contract for
the Cape Girardeau Courthouse, the PBS project manager was responsible for the
oversight of the construction and the timely completion of the project. This was of
particular importance because this project was already criticized for being behind
schedule and having identified deficiencies.

The PBS project manager was also appointed as the Contracting Officer’s
Representative (COR) on the project with authority to conduct negotiations and execute
contract modifications of $25,000 or less. For change orders over $25,000, the project
manager had authority to conduct negotiations and to prepare a negotiation
memorandum for the PBS Contracting Officer (CO) but the authority to execute the
contract modification remained with the CO. In addition, the PBS project manager for
this contract has independent warranted CO authority of up to $100,000.

Our review identified two change orders (P-11 for $18,726 and P-12 for $48,782) where
the CO would not approve the amount of the change order work because the CO was
not satisfied with the contract file documentation. In both of these instances, the
change order amounts were approved by the project manager. Although P-11 did not
exceed the project manager’s COR limit, P-12 did. We further noted that the CO’s letter
granting the project manager COR authority was dated March 4, 2008, the same date
both change orders were executed.

PBS contracting officials advised us that they refused to approve the change orders
because there was no scope of work specifically identified and some referenced
specifications were not part of the contract. In addition, the documents from the
architect/engineer were not signed and clearly stated that they were “not for
construction.”

Our review of the documentation in the two change order files determined that, in our
opinion, there were ambiguities of what was specifically required of the contractor. For
example, change order P-11 stated, in part, for line item 2-NI13A that the contractor
was to “provide and install security upgrades for elevators per 100% pricing drawings
dated October 16, 2007 and 100% pricing specifications dated October 15, 2007.”
However, the file did not contain either the drawings or specifications. Change order P-


                                           3
12 had similar ambiguities and, while referencing the same drawings and specifications
as P-11, it also did not contain any of the referenced documents.

We believe that this situation occurred because the Region 6 PBS project management
personnel were primarily concerned with project completion as this project was already
very far behind schedule. As a result, the project management was upset at the
acquisition personnel’s requirements because the project management believed these
requirements were further delaying the completion of the construction work.

In addition, it should be noted that, (1) both PBS acquisition and project management
personnel work in the Region 6 PBS Project Management Division and (2) the gap work
contract project manager was a higher grade level than the contracting personnel
assigned to the project. Accordingly, contracting personnel concerns were subrogated
to project management concerns. Also, contracting personnel are currently in a position
where their oversight role is compromised because their rating officials may give poor
evaluations or take other action against contracting officials based on factors other than
those directly related to determinations for executing contracting actions. For example,
it has been reported to our office that high grade program managers have reported
contracting officials for not being “team players” in an attempt to get administrative
action taken against the contracting officials.

Separation of duties is one of the key concepts of internal control processes for the
prevention of fraud and errors. Specifically, functions are separated so that no one
person can perform all of the procurement steps and thereby commit fraud or have an
undetected error. As it relates to construction projects, the PBS personnel who are
responsible for the monitoring and oversight of construction projects should not also
have the authority to modify the contract without additional review. In the case of
change orders P-11 and P-12, the project manager initiated the change order work,
determined the scope of the work, and awarded the work. This creates a situation
where a person could commit fraud (such as accepting a bribe in exchange for an
inflated contract price) or commit an error (such as incorrectly adding amounts) and this
activity would not be detected.

In addition to the improper separation of duties, the execution of the construction
change orders by the gap work project manager could be a conflict of interest. The
project manager for the Cape Girardeau gap work contract was under pressure to
complete the construction work as quickly as possible because of the problems
associated with this project. By executing the two construction change orders over the
CO’s objections, the question could be raised as to whether the project manager was
diligent in protecting the taxpayers’ interests. This problem is especially significant in
that the project manager approved the two construction change orders because PBS
contracting personnel refused to do so and the project manager was subsequently
granted a cash performance award for his “diligence, resilience and creative work” on
the Cape Girardeau Courthouse project.

Accordingly, in order to ensure proper separation of duties in the procurement process
on construction projects, we advised PBS management that Region 6 PBS construction

                                            4
project managers should not have warranted CO authority on construction projects to
which they have been assigned. In addition, we discussed with Regional PBS
management the possibility of establishing separate divisions for project management
and construction acquisition.

In response to our discussions on our preliminary findings, Regional PBS management
agreed that project managers should not have contracting authority. In addition, PBS
management stated that CORs generally should not have contracting authority for the
same reasons as project managers. PBS management informed us that they are
rescinding contracting warrants for project managers and most CORs.

Also in response to our preliminary audit findings and discussions, PBS management
explained that they believe a separate management/supervisory structure was needed
for project management and acquisition but separate divisions were not necessary.
Specifically, PBS management stated that personnel have been reassigned and
currently, the Heartland Region has separate branches for project management and
acquisition. In addition, PBS management has suggested a conflict resolution process
that addresses our concerns.

Accordingly, because PBS management has already taken action to address the issues
raised during our review, no audit recommendations are warranted.


Finding 2 – Inadequate Documentation of Contract Change Order Files

In accordance with the FAR, Subpart 4.801, documentation in Government contract files

      “. . .shall be sufficient to constitute a complete history of the transaction for
      the purpose of (1) providing a complete background as a basis for
      informed decisions at each step in the acquisition process; (2) supporting
      actions taken; (3) providing information for reviews and investigations;
      and (4) furnishing essential facts in the event of litigation or congressional
      inquiries."

Additionally, FAR Subparts 4.802 and 4.803 as well as GSAM, Subpart 504.802 and
504.803, specify what the contract files should consist of and list numerous examples of
the records normally contained in the contract files.

Our review of the contract change order files determined that the file documentation did
not always adequately explain the actions taken by PBS personnel. Specifically, we
determined that the file documentation oftentimes did not demonstrate or explain how
the final negotiated change order amount was established. For example, records of
negotiations were sometimes inadequate (e.g., no explanation of why some costs were
accepted, missing proposals, etc.), contractor’s proposals did not always include
detailed breakdowns of the individual costs, referenced drawings and specifications
were sometimes not included in the change order file, work items were sometimes


                                             5
deleted or added to the change order scope of work without explanation, and
Government estimates did not address all change order costs.

We believe that this situation occurred because (1) some PBS project management
personnel were unaware of the FAR and GSAM requirements for file documentation
and (2) the Cape Girardeau project management’s focus on the completion of the
construction project. For example, one of the CORs for the Cape Girardeau project
advised us in an e-mail that, “Typically we do not ask for a line item breakdown (number
of hours) for all the contractor costs when the contractor’s proposal is considered to be
fair and reasonable as it was in this case(s).” In an e-mail from another one of the
project’s CORs to the construction contractor, the COR advised the contractor how to
propose the costs for some requested roof work and further stated, “This will be a lump-
sum proposal.” Another example is change order P-4, where the CO was requested to
finalize the contract modification before the revised specification had been issued. In an
e-mail to one of the project’s CORs, the CO responded:

       The only problem here is that -- to the best of my knowledge, Novack [the
       project contractor] has yet to receive a modified humidification
       [specification] from SFSA [the project architect/engineer]. They need to
       have the correct [specification] in order to provide us with proper pricing.
       We’re getting ahead of ourselves because we have been told to hurry.

Detailed change order proposals are required by the Equitable Adjustments clause of
the contract and without the required detail, it is difficult to ensure that negotiations were
properly conducted and that the procurement is free from errors in price and/or scope.
Also, while we recognize the need to conduct procurements quickly and effectively,
obtaining detail information helps to ensure that procurements are transparent and error
free and is required by regulation. Further, in order to expedite work, contract actions
may have been taken prior to having the necessary documentation. This could put the
project in jeopardy of error or loss and could put the Government in a compromised
position in the event of claims or other problems on the project.

Not only is proper documentation a requirement (pursuant to FAR and GSAM citations
above) but, more importantly, the documentation establishes the appropriateness of the
actions taken on the construction project. Appropriate documentation also protects the
Government, as well as the employees assigned to the construction project, in the event
of any subsequent litigation or investigations. We, therefore, believe that Regional PBS
management should ensure that PBS employees comply with the appropriate
regulations that require adequate contract file documentation.

In response to our preliminary findings, Regional PBS management informed us that it
is implementing training for project teams regarding file documentation requirements
and is going to have Branch Chiefs review files to ensure that the files are documented
properly. Accordingly, because PBS management has already taken action to address
the issues related to file documentation, no audit recommendation is necessary.




                                              6
Internal Controls

The internal controls over the administration of the Cape Girardeau Courthouse,
Contract Number GS06P07GYD0017, were inadequate to the extent as described in
the body of this audit report.

If you have any questions regarding the review results, please contact Katina Beach or
me at 926-7052.




                                          7
                




    APPENDIX




         
                             LIMITED REVIEW OF THE
                           CONTRACT ADMINISTRATION
                       OF THE U.S. COURTHOUSE PROJECT IN
                           CAPE GIRARDEAU, MISSOURI
                        REPORT NUMBER A080186/P/6/R10002


                                REPORT DISTRIBUTION

                                                                     Copies

Regional Commissioner, Public Buildings Service (6P)                   3

Regional Administrator, Heartland Region (6A)                          1

Director, Internal Control & Audit Division (BEI)                      1

Assistant Inspector General for Auditing (JA & JAO)                    2

Deputy Assistant Inspector General for Real Property Audits (JA-R)     1

Regional Inspector General for Investigations (JI-6)                   1




                                            A-1
